                                             1,                NATIONAL SCIENCE FOUNDATION
                                                                OFFICE OF INSPECTOR GENERAL
                                                                                                  11


                                             I
                                                                  OFFICE OF INVESTIGATIONS
                                             1
                                             CILOSEOUT MEMORANDUM
                                             )I

                                                                                       11
                                                                                                   1,
                                             il
 Case    umber: I06070016                     !t                                              Page,,1 of 1
                                              11

                                              I/

                                              Ij
         The National Science Foundation, OIG opened this investigation based on information received
                                                 1
         fiom a complainant1 who alleged thatihis estranged wife, an NSF employee2,had accessed his
                                                 I
         bank account3 and transferred monies to their joint bank account without his authorization and
         she did this utilizing her NSF g o v e v e n t computer.

         The Complainant stated he reported this to the Fraud and Security Division of his bank and an
         investigator4was assigned. The comdlainant stated the bank identified the IP address involved in
         this matter as one belonging to the ~ d i o n a Science
                                                         l       Foundation. The complainant signed a
         financial release form and NSFIOIG d a s able to obtain information and records fiom th; bank
         investigator. IRMIDIS researched the~!IPaddress and determined that it belonged to the NSF
                                                I/
         employee who is the subject of this case.                                                      I

                                                   I

         The NSF employee5was interviewed and acknowledged having accessed her husband's personal
         bank account to pay their bills. She ehlained she attempted to use the password she had for this
         account but it was no longer valid. ~ h ' knew
                                                   k    the answer to the secret question and was able to
         reset the password herself. She explaihed that at the time she did this she may have not used
                                                I1
         proper judgment but said her only intention was to pay their bills that were due.
                                                       1               7



         NSFIOIG consulted with an attorney6 at the U.S. Department of Justice, Computer Crimes and
         Intellectual Property Section (CCIPS) who stated that the matter is one involving a domestic
         dispute and does not appear to contain briminal intent. The attorney stated that the matter does
         not warrant any further criminal investilgative efforts as CCIPS would not pursue prosecution on
         this matter.                            1
                                                       I:
         Accordingly, this case is closed.             i
                                                           I




                                                               C                                            I,


NSF 01G Form 2 (1 1102)                                        'I                                           (1
                                                               /I
